  Additional Copies

  To obtain additional copies of this audit report, contact the secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector General,
  DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
DEA                   Data Exchange Agreement
EAR                   Export Administration Regulations
ITAR                  International Traffic in Arms Regulations
                            Office of the Inspector General, DoD
Report No. D-2000-110                                                  March 24, 2000
   (Project No. 9LG-5030)

                  Export Licensing at DoD Research Facilities

                                   Executive Summary

Introduction. This is the first of several annual reports to be issued by the Inspector
General, DoD, in accordance with the National Defense Authorization Act for Fiscal
Year 2000, section 1402, which requires an annual report on the transfers of militarily
sensitive technology to countries and entities of concern. Very large numbers of foreign
nationals visit DoD research facilities under various international agreements and
programs. Access to a research facility can be for a 1-day visit or for a period of several
years. During those visits, foreign nationals may have access to export-controlled
software or technology. To export means to send or take commodities (material and
equipment), computer software, or technical data from the United States to a foreign
destination or to transfer technical data, including computer software, by any means to a
foreign destination or to a foreign national in the United States. The release of technical
data that meets the criteria of the Export Administration Regulations or the International
Traffic in Arms Regulations to a foreign national working in or visiting a DoD facility in
the United States is considered an export. According to the Export Administration
Regulations and the International Traffic in Arms Regulations the oral, visual, or written
disclosure of technical data to a foreign national may require a “deemed” export license.

The Defense Data Exchange Program supports DoD efforts to enhance the technology
base and identify areas for further research and development. Master data exchange
agreements are established for each country participating in the Defense Data Exchange
Program. Master data exchange agreements act as the umbrella authority for data
exchanges and outline the provisions and procedures for transmitting information. An
annex is prepared for each master data exchange agreement, as needed, to update and
identify the scope of the exchange. There are no limits to the number of annexes a master
data exchange agreement may have; however, information is to be exchanged only with
countries whose research and development know-how enhances U.S. scientific or
technical capabilities.

Objectives. The overall audit objective was to evaluate the adequacy of DoD policies
and procedures to prevent the transfer of technologies and technical information with
potential military application to countries and entities of concern. Specifically, we
evaluated procedures for determining whether a deemed export license was required
when a foreign national visited a DoD research facility. We also reviewed the
management control program as it related to the overall objective.
Results. DoD research facilities did not have procedures for determining whether a
deemed export license was required in conjunction with the disclosure or release of
technical data to foreign nationals. In addition, Military Department program officials
were not knowledgeable of the term “deemed” or of the licensing requirements for
deemed exports. As a result, DoD research facilities provided technical data to foreign
nationals without determining whether an export license was required (finding A).

DoD seldom provided proposed data exchange agreement annexes to the Department of
Commerce for review. From calendar years 1994 through 1999, the Military
Departments signed 316 data exchange agreement annexes; however, DoD provided only
48 to the Department of Commerce. As a result, DoD was not necessarily reflecting a
U.S. Government consensus position when approving most data exchange agreement
annexes (finding B).

See Appendix A for a discussion of our review of the management control program.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Policy coordinate with the Departments of Commerce and State to develop guidance
for applying Federal deemed export licensing requirements and revise DoD
Directive 2040.2, “International Transfers of Technology, Goods, Services, and
Munitions,” and DoD Directive 5230.20, “Visits, Assignments, and Exchanges of
Foreign Nationals,” to direct implementation of that guidance to the Military
Departments. In addition, we recommend that the Director, Defense Research and
Engineering, coordinate with the Departments of Commerce and State to develop
guidance for applying deemed export licensing requirements at DoD research facilities
and develop an export control program and procedures that will guide DoD research
facilities in determining when to apply, and how to execute, export control requirements,
with regard to foreign national visits to DoD research facilities. Also, we recommend
that the Deputy Under Secretary of Defense (International and Commercial Programs)
rescind the 1994 policy memorandum, “Implementing Arrangements to Research and
Development Agreements,” and revise DoD Instruction 2015.4, “Mutual Weapons
Development Data Exchange Program and Defense Development Exchange Program,”
giving the Military Departments direct coordination authority with the Department of
Commerce for all data exchange agreement annexes. Further, we recommend that the
Military Departments update existing guidance to require data exchange agreement
annexes be coordinated with the Department of Commerce.

Management Comments. The Deputy Under Secretary of Defense (International and
Commercial Programs) stated an ongoing review, which includes representatives from
the Departments of Commerce and State, will help identify process improvements in the
review and approval processes for international agreements. This audit report would be
considered in the development of further policy and process enhancements. The Army
partially concurred and the Navy and Air Force concurred with the recommendations
addressed to them and provided details of planned updates to their applicable guidance.
A discussion of management comments is in the Findings section of the report and the
complete text is in the Management Comments section.




                                            ii
We provided a draft of this report to the Under Secretary of Defense for Policy and the
Director, Research and Engineering on February 8, 2000. As of March 17, 2000, we had
not received management comments from those offices.

Audit Response. The Deputy Under Secretary of Defense (International and
Commercial Programs) comments were partially responsive. Although we commend
DoD for conducting a review of its internal processes for international cooperation and
trade, it is unclear what management’s position is on the recommendation to rescind the
1994 policy memorandum and revise DoD Instruction 2015.4, “Mutual Weapons
Development Data Exchange Program and Defense Development Exchange Program.”
We request that the Under Secretary of Defense for Policy; the Director, Defense
Research and Engineering; and the Deputy Under Secretary of Defense (International and
Commercial Programs) provide comments on the final report by May 15, 2000.




                                          iii
Table of Contents

Executive Summary                                                           i


Introduction
     Background                                                            1
     Objectives                                                            3

Findings
     A. Licensing DoD Research and Development Efforts                      4
     B. Data Exchange Agreement Annexes                                    20

Appendixes
     A. Audit Process
           Scope                                                           27
           Methodology                                                     28
           Management Control Program                                      29
     B. Prior Coverage                                                     31
     C. Research and Development Programs Available to Foreign Nationals   32
     D. Report Distribution                                                35

Management Comments
     Deputy Under Secretary of Defense (International and Commercial
       Programs)                                                           37
     Department of the Army                                                38
     Department of the Navy                                                43
     Department of the Air Force                                           44
Background
    Public Law 106-65, National Defense Authorization Act for Fiscal Year 2000,
    section 1402, “Annual Report on Transfer of Militarily Sensitive Technology to
    Countries and Entities of Concern,” October 5, 1999, requires that the Inspectors
    General of the Departments of Commerce, Defense, Energy, and State, in
    consultation with the Director, Central Intelligence Agency, and the Director of
    the Federal Bureau of Investigation, conduct annual reviews of the transfer of
    militarily sensitive technologies to countries and entities of concern. This report
    addresses the DoD portion of the required FY 2000 interagency review. An
    interagency report will also be issued.

    Foreign nationals may have access to export-controlled software or technology
    when visiting DoD research facilities.1 To export means to send or take
    commodities (material and equipment), computer software, or technical data from
    the United States to a foreign destination or to transfer technical data, including
    computer software, by any means to a foreign destination or to a foreign national
    in the United States. The release of technical data that meets Department of
    Commerce (Commerce) criteria in the Export Administration Regulations (EAR),
    15 Code of Federal Regulations, part 730, or Department of State criteria in the
    International Traffic in Arms Regulations (ITAR), 22 Code of Federal
    Regulations, part 120, to a foreign national working in or visiting a DoD facility
    in the United States is considered an export.

    Commerce Requirements. The Commerce Bureau of Export Administration
    controls the export of dual-use commodities using the authority provided in the
    Export Administration Act of 1979, as amended (title 50, United States Code,
    appendix section 2401, et seq.). The Export Administration Act expired in
    August 1994 and has not been reenacted. However, pursuant to Executive Order
    12924, “Continuation of Export Control Regulations,” August 19, 1994, the
    President declared a national emergency and, under the authority of the
    International Emergency Economic Powers Act (title 50, United States Code,
    section 1701, et seq.), continued and amended the provisions of the Export
    Administration Act. Each year thereafter, and most recently on August 11, 1999,
    the President issued a notice, “Continuation of Emergency Regarding Export
    Control Regulations,” continuing the emergency declared by Executive Order
    12924. The EAR implements the Export Administration Act and Executive Order
    12924 requirements for executing the export licensing process for dual-use
    commodities. In addition, the EAR contains the Commerce Control List that
    identifies all dual-use commodities, technology, or software subject to the export
    licensing process as well as the conditions under which they may be exported.
    According to the EAR, any release to a foreign national of software or technology
    that is subject to the EAR is “deemed to be an



    1
     For the purposes of this report, the term research facility is used to connote any DoD research
     center, laboratory, or entity in which research and development activities occur.



                                                 1
export” to the home country of the foreign national. Those exports are commonly
referred to as “deemed exports.” Software or technology can be exported
through:

       •   visual inspection by foreign nationals of U.S.-origin equipment and
           facilities;

       •   oral exchanges of information in the United States or abroad; or

       •   the application to situations abroad of personal knowledge or technical
           experience acquired in the United States.

The U.S. hosts are generally required to obtain an export license before providing
a foreign national access to software or technology that may be subject to export
licensing requirements.

Department of State Requirements. The Department of State Office of
Defense Trade Controls is responsible for registering persons or companies
involved in controlling the export of defense-related articles and services,
approving or denying export licenses, and ensuring compliance with the Arms
Export Control Act (title 22, United States Code, section 2751) and other
applicable laws and regulations. The ITAR implements the Arms Export Control
Act and contains the U.S. Munitions List, which identifies Defense articles,
services, and related technical data that may be exported as well as the conditions
under which munitions may be exported. That list includes those items,
technologies, and services that are inherently military in character and could, if
exported, jeopardize national security or foreign policy interests of the United
States.

The ITAR states that, unless otherwise exempted, a license is required for the
oral, visual, or written disclosure of technical data to a foreign national in
connection with visits by U.S. citizens to foreign countries and visits by foreign
nationals to the United States. An export license is required regardless of the
manner in which the technical data is transmitted. Although the ITAR does not
use the term deemed exports, for the purposes of this report the term deemed
exports includes the oral, visual, or documentary disclosure of technical data to a
foreign national.

International Agreements. DoD uses international agreements, through
memorandums of understanding or memorandums of agreement, to establish
programs for cooperative research, development, test, evaluation, data exchange;
cooperative or reciprocal logistics support; and coproduction and licensed
production, as well as related standardized efforts. The primary objectives of
those programs are to increase military effectiveness through standardization and
interoperability and to reduce weapon acquisition costs by avoiding duplication of
developmental efforts with our allies.

Defense Data Exchange Program. The Defense Data Exchange Program
supports DoD efforts to enhance the technology base and identify areas for further
research and development. Master data exchange agreements (DEAs) are
established for each country participating in the Defense Data Exchange Program.



                                     2
     Master DEAs act as the umbrella authority for data exchanges and outline the
     provisions and procedures for transmitting information. A DEA annex is
     prepared for each master DEA, as needed, to update and identify the scope of the
     exchange. There are no limits to the number of DEA annexes a master DEA may
     have; however, information is to be exchanged only with countries whose
     research and development know-how enhances U.S. scientific or technical
     capabilities.



Objectives
     The overall audit objective was to evaluate the adequacy of DoD policies and
     procedures to prevent the transfer of technologies and technical information with
     potential military application to countries and entities of concern. Specifically,
     we evaluated procedures for determining whether a deemed export license was
     required when a foreign national visited a DoD research facility. We also
     reviewed the management control program as it related to the overall objective.
     See Appendix A for a discussion of the scope and methodology and our review of
     the management control program. See Appendix B for prior coverage related to
     the objectives.




                                         3
           A. Licensing DoD Research and
              Development Efforts
           DoD research facilities did not have procedures for determining whether a
           deemed export license was required in conjunction with the disclosure or
           release of technical data to foreign nationals. In addition, Military
           Department program officials were not knowledgeable of the term
           “deemed” or of the licensing requirements for deemed exports. DoD
           guidance does not clearly state policies, procedures, and responsibilities of
           DoD and Military Department hosts for determining whether a deemed
           export license was required when a foreign national visited a DoD
           research facility, and guidance does not prescribe circumstances that
           would exclude DoD research facilities from the requirements of the EAR
           or the ITAR. As a result, DoD research facilities provided technical data
           to foreign nationals without determining whether an export license was
           required.



Procedures for Deemed Export Licenses
    DoD research facilities did not have procedures for determining whether a
    deemed export license was required in conjunction with the disclosure or release
    of technical data to foreign nationals. According to export licensing reports by
    the Departments of Commerce and State, DoD had not submitted any deemed
    export license applications during FY 1998 or FY 1999. We visited research
    facilities at the Army Armament Research, Development and Engineering Center,
    Picatinny Arsenal, New Jersey; the Army Communications-Electronics
    Command, Fort Monmouth, New Jersey; the Naval Air Warfare Center, Aircraft
    Division, Patuxent River, Maryland; the Naval Air Warfare Center, Weapons
    Division, China Lake, California; and the Air Force Research Laboratories at
    Kirtland Air Force Base, New Mexico, and Wright-Patterson Air Force Base,
    Ohio. During FY 1998 and FY 1999, those six sites had 11,544 approved foreign
    visitors.

    Foreign nationals visit DoD research facilities under various international
    agreements and programs (see Appendix C). Technical data at DoD research
    facilities can be released to a foreign national during a short-term visit (normally
    less than 30 days) or during the period of the foreign visitor’s assignment through
    either the individual’s integration into the installation workforce as an extended
    visitor or through the individual’s specific request for release of technical
    information or documentation. Although DoD hosts reviewed and approved the
    release of technical data for accuracy and security implications, those reviews did
    not include a determination of whether a deemed export license was needed prior
    to the disclosure or release of the technical data.

    Army Research Facilities. Army research facilities visited did not have
    procedures for determining whether a deemed export license was required in
    conjunction with the disclosure or release of technical data to foreign nationals.



                                          4
Army Regulation 380-10, “Security: Technology Transfer, Disclosure of
Information and Contacts with Foreign Representatives,” December 1994,
addresses the protection of militarily critical technologies as they relate to the
objective of the Army Technology Security Program. Foreign national visits to
Army installations can be initiated through the Foreign Disclosure and Technical
Information System using the Foreign Visits System; by writing to the Office of
the Deputy Chief of Staff for Intelligence, Department of the Army; or directly
with the Army agency or command (“out of channel”). The Office of the Deputy
Chief of Staff for Intelligence exercises authority over foreign national visits and
certifications of liaison officers and exchange personnel to Army elements, but
may delegate its authority to Army subordinate commands. Before approving a
foreign national’s visit, the foreign disclosure officer at the agency or command to
be visited usually coordinates with the responsible engineer or scientist and
technical control project manager or officer. In addition, the foreign disclosure
officer may coordinate with officials from the visited installation’s
counter-intelligence office. Army Regulation 380-10 generally delegates the
approval authority for disclosure of public domain and “unclassified but not in the
public domain” information to the foreign disclosure officer without requiring
external coordination. Army Regulation 380-10 does not address export license
criteria, conditions, or limitations related to the disclosure of any type of
information, including applied research and development at Army research
facilities.

Army Procedures for Release of Technical Data. Army policy and procedures
require that the developing scientist or assigned host provide any briefing charts
or technical documents that are to be released during the visit of the foreign
national to an assigned contact officer for review. Those documents are initially
reviewed for technical accuracy and other security implications by the contact
officer and coordinated with the Foreign Disclosure Office as appropriate. A
contact officer is designated to control the activities of any foreign visitors, liaison
officers, and exchange personnel at Army installations. All contact officers must
be familiar with the requirements of Army Regulation 380-10, other applicable
guidelines governing the release of classified military information and controlled
unclassified information, and specific disclosure guidelines established in the
delegation of disclosure authority letter.2 The contact officers provide the
immediate supervision and classification assessment or recommendation for the
technological efforts being worked on, or submitted for release, by the scientist or
assigned foreign visitor. In addition, under some circumstances, documents
submitted for release may be required to be reviewed by the project manager or
research facility director; the installation operations security manager; or the
installation contracting, legal, or patent personnel. Final release approval of the
technical data is granted by the agency or command through either its Foreign
Disclosure Office or Office of Public Affairs. However, none of the reviews
involve a determination of whether a deemed export license is needed before the
release of the technical data.


2
 A delegation of disclosure authority letter is issued by the appropriate designated disclosure
 authority explaining categories, classification levels, limitations, and scope of technical data
 under the Military Departments’ disclosure jurisdiction that may be disclosed to a foreign
 national.



                                              5
Navy Research Facilities. Navy research facilities visited did not have
procedures for determining whether a deemed export license was required in
conjunction with the disclosure or release of technical data to foreign nationals.
Secretary of the Navy Instruction 5510.34, “Manual for the Disclosure of
Department of the Navy Military Information to Foreign Governments and
International Organizations,” November 4, 1993 (Navy Instruction 5510.34),
addresses the control of foreign nationals and the release of information to foreign
nationals within the Navy community. Navy Instruction 5510.34 does not address
deemed export license criteria, conditions, or limitations related to the disclosure
of any type of information, including applied research and development at Navy
research facilities.

Foreign national visits to Navy installations can be initiated through the Foreign
Disclosure and Technical Information System using the Foreign Visits System; by
writing to the Navy International Programs Office; or directly with the command
or facility to be visited. The Navy International Programs Office exercises
authority over foreign national visits and certifications of liaison officers and
exchange personnel to Navy elements, but may delegate its authority to
subordinate commands. Navy Instruction 5510.34 generally delegates limited
disclosure authority and visit approval authority to Navy Systems Commands.
Disclosure and visit authority may be exercised without external coordination.
Before approving a visit by a foreign national, the foreign disclosure officer at the
facility to be visited coordinates with the responsible engineer, scientist, or project
manager. In addition, the foreign disclosure officer coordinates with the
organization’s counter-intelligence officer as necessary.

Navy Procedures for Release of Technical Data. Navy policies and procedures
require that the developing scientist or assigned host ensures that any briefing
charts or technical documents to be released during the visit of the foreign
representative have been reviewed and approved for release. Those documents
are initially reviewed and approved for technical accuracy and other security
implications by an assigned contact officer and submitted to the Foreign
Disclosure Office for information. The same process is followed for briefing
materials that have not been previously approved. A contact officer is designated
for each visit to control the activities of any foreign visitors, liaison officers,
cooperative program personnel, and exchange personnel at Navy installations.
All contact officers must be familiar with the requirements of Navy Instruction
5510.34, program-specific release policies, and other applicable guidelines
governing the release of classified military information and controlled
unclassified information. However, none of the reviews involve a determination
of whether a deemed export license is needed prior to the release of the technical
data.

Air Force Research Facilities. Air Force research facilities visited did not have
procedures for determining whether a deemed export license was required in
conjunction with the disclosure or release of technical data to foreign nationals.
Air Force Instruction 16-201, “Disclosure of Military Information to Foreign
Governments and International Organizations,” October 24, 1994, establishes
controls, policies, and procedures for the disclosure of military information to
foreign governments, foreign nationals, and international organizations while
emphasizing the importance of adequate protection for disclosures. It also defines



                                      6
policies and procedures governing the release of information to foreign
governments, international organizations, and foreign nationals. Air Force
Instruction 16-201 includes the protection of militarily critical technologies and
disclosures involving oral or visual transmission of information through approved
channels to authorized representatives of a foreign government or international
organization. However, Air Force Instruction 16-201 did not address export
license criteria, conditions, or limitations related to the disclosure of any type of
information, including applied research and development at Air Force research
facilities.

In accordance with Air Force Instruction 16-201, any foreign national visiting Air
Force facilities must obtain prior approval. Foreign national visits to Air Force
research facilities were most frequently initiated through the Foreign Disclosure
and Technical Information System using the Foreign Visits System.
Approximately six other DoD or Air Force scientific, engineering, or professional
exchange or employment programs allowed foreign nationals, either short-term
visitors or extended visitors, access to research facilities, technologies, and
programs. Regardless of how a visitor enters an Air Force research facility,
foreign disclosure officers conduct thorough reviews on visiting foreign nationals.
Those reviews include the purpose and type of visit (or employment),
consideration of the level and classification of technology that could be accessed,
and that proper disclosure authority is obtained before approval of the request. In
addition, the foreign disclosure officer may coordinate with officials from the
visited installation’s counter-intelligence office and the regional Office of the
Federal Bureau of Investigation for visitor background information.

Air Force Procedures for Release of Technical Data. Air Force policies and
procedures require technical data to be reviewed for accuracy and security
implications before release to a foreign national. Each activity, program, or
project had prepared a list of critical information that was to be protected from
public disclosure. Procedures prior to the release of technical data to foreign
nationals at Air Force research facilities include the following.

       •   The author reviews the technical data for security or controlled items.
           The program managers identify whether the data is to be used for
           briefings, publications, symposiums, training, or fulfillment of a
           foreign national’s personal request for information. The branch and
           division chief conduct technical reviews of the documents to be
           released.

       •   Managers determine whether information is releasable as public
           domain, Freedom of Information Act, For Official Use Only,
           unclassified, controlled unclassified, or classified and identify the
           authority for its release either by a DEA, memorandum of
           understanding, memorandum of agreement, or treaty. Managers match
           the technical data against the DoD Militarily Critical Technologies
           List and sometimes the U.S. Munitions List, but rarely against the
           Commerce Control List. The match against the Militarily

           Critical Technologies List and the U.S. Munitions List is to verify that




                                      7
               the technology under review is a critical technology, not to determine
               export licensing requirements.

           •   In some cases, the public affairs officer and the science and technology
               information officer conduct reviews. Additional reviews may be
               conducted by the operations security officer or the foreign disclosure
               officer. Also, depending on the security level of the data or its military
               criticality or sensitivity, controls are tightened by additional levels of
               review by the Aeronautical Systems Center, the Air Force Research
               Laboratory, the Air Force Materiel Command, the Air Force Office of
               Scientific Research, or higher.

           •   Reviewing officials maintain and file all coordination “signature
               sheets” and review notes showing reasons for concurrence or
               nonconcurrence, approvals or denials.

    However, none of the reviews involved a determination of whether a deemed
    export license was needed prior to the release of the technical data.



Awareness of Deemed Export Licensing Requirements
    Military Department program officials were not knowledgeable of the term
    “deemed” or of the licensing requirements for deemed exports.

    Army Program Officials. Army officials at different levels who had
    management and oversight responsibilities for approving or denying foreign
    national visits to laboratories and controlling militarily critical or sensitive
    technologies within Army laboratories were unaware of the term or licensing
    requirements for deemed exports. The Deputy Chief of Staff for Intelligence,
    Army Materiel Command, was unaware of any DoD policies and procedures for
    deemed export licenses and his awareness of export licensing requirements was
    limited to the Foreign Military Sales program. We visited research facilities at the
    Armament Research, Development and Engineering Center and the
    Communications-Electronics Command. We met with the commanding general,
    the foreign disclosure officer, the chief of security, the public affairs officer,
    directors, division chiefs, and assigned contact officers at each installation. At the
    research facilities, we met with selected technical control product or project
    managers and selected engineers and scientists associated with foreign national
    visits.

    None of the officials with whom we met were knowledgeable of the term or
    licensing requirements for deemed exports. Except for Foreign Military Sales
    officials, personnel were not knowledgeable of the EAR or the ITAR export
    licensing requirement for the release of technical data. Officials were familiar
    with the policies and procedures governing identification of militarily critical
    technologies and disclosure of classified military information and controlled
    unclassified information, but did not relate those policies and procedures to the
    need for a deemed export license. In addition, they were unaware of the



                                          8
Commerce Control List and had no knowledge of which Army research and
development technologies should be matched against the Commerce Control List.

Navy Program Officials. Navy officials at different levels who had management
and oversight responsibilities for approving or denying foreign national visits to
laboratories and controlling militarily critical or sensitive technologies within
Navy laboratories were unaware of the term or licensing requirements for deemed
exports. The Navy International Programs Office was unaware of any DoD
policies and procedures for deemed export licenses. We visited research facilities
at the Naval Air Warfare Center, Aircraft Division, and the Naval Air Warfare
Center, Weapons Division. We met with the foreign disclosure officers, the
chiefs of security, directors, division chiefs, assigned contact officers, selected
project managers, and selected engineers and scientists associated with foreign
national visits.

A few of the officials with whom we met were knowledgeable of the term and
licensing requirements for deemed exports. The majority were aware of situations
in which technical data or documents required export license markings prior to
release. Also, officials had some general knowledge of export controls and
licensing of materials or systems related to the Foreign Military Sales programs.
Officials were familiar with the EAR and the ITAR policies and procedures
governing identification of militarily critical technologies and disclosure of
classified military information and controlled unclassified information, but did not
relate those policies and procedures to the need for a deemed export license. In
addition, they were unaware of the Commerce Control List and had no knowledge
of which Navy research and development technologies should be matched against
the Commerce Control List.

Air Force Program Officials. Air Force officials at different levels who had
management and oversight responsibilities for approving or denying foreign
national visits to laboratories and controlling militarily critical or sensitive
technologies within Air Force facilities were unaware of the term or licensing
requirements for deemed exports. Officials from the Office of the Deputy Under
Secretary of the Air Force (International Affairs), to include the International
Affairs Policy Division, Security and Special Programs Division, Disclosure
Division, Operations Support Division, and representatives from the Air Force
Office of Special Investigations, were not familiar with the term deemed exports
and were generally unaware of any DoD policies and procedures addressing
deemed exports. We visited research facilities at Kirtland and Wright-Patterson
Air Force Bases. At those bases, we interviewed the commanding officer, the
foreign disclosure officer, the chief of security, directors, division chiefs, and
assigned contact officers. We interviewed personnel at the Aeronautical Systems
Center International Programs Division, the Air Force Research Laboratory
headquarters, and five subordinate Air Force Research Laboratory Directorates.
We also interviewed headquarters and directorate-level security managers, foreign
disclosure officers and staff, agents from the Office of Special Investigations,
public affairs officers, computer systems security officers, scientific and technical
information officers, and




                                      9
     specific engineers and scientists designated as project leaders and managers
     having administrative, supervisory, and technical responsibilities for short-term
     and extended visits by foreign nationals.

     None of the officials with whom we met were knowledgeable of the term or
     licensing requirements for deemed exports. They were aware of situations in
     which technical data or documents required export license markings prior to
     release. Also, officials had some general knowledge of export controls and
     licensing of materials or systems related to the Foreign Military Sales program.
     Officials were familiar with the EAR and the ITAR policies and procedures
     governing identification of militarily critical technologies and disclosure of
     classified military information and controlled unclassified information, but did not
     relate the policies and procedures to the need for a deemed export license. In
     addition, they were unaware of the Commerce Control List and had no knowledge
     of which Air Force research and development technologies should be matched
     against the Commerce Control List.



Policies, Procedures, and Responsibilities
     DoD guidance did not clearly state policies, procedures, and responsibilities of
     DoD and Military Department hosts for determining whether a deemed export
     license was required when a foreign national visited a DoD research facility, and
     the guidance did not prescribe circumstances that would exclude DoD research
     facilities from the requirements of the EAR or the ITAR. According to
     Commerce licensing officials, before releasing software or technology, a U.S.
     host must:

            •   determine who will hear, see, or receive the specific software or
                technology;

            •   review the software or technology and match it against the Commerce
                Control List; and

            •   complete and submit a deemed export license application if the
                commodity, software, or technology is on the Commerce Control List.

     DoD Requirements. DoD Directive 2040.2, “International Transfers of
     Technology, Goods, Services, and Munitions,” January 1984, and DoD
     Directive 5230.20, “Visits, Assignments, and Exchanges of Foreign Nationals,”
     August 1998, do not clearly state policies, procedures, and responsibilities for
     determining whether a deemed export license is required when a foreign national
     visits a DoD research facility.

            DoD Directive 2040.2. DoD Directive 2040.2 implements relevant
     portions of the Export Administration Act, the Arms Export Control Act, and the
     National Security Decision Directive by establishing policy, prescribing
     procedures, and assigning responsibilities for the international transfer of
     Defense-related goods, munitions, services, and technologies. DoD
     Directive 2040.2 applies to the Office of the Secretary of Defense, the Joint Staff,


                                          10
the Military Departments, and the Defense agencies (referred to collectively as
DoD Components). DoD Directive 2040.2 states that DoD Components are to
apply export controls in a manner that minimally interferes with the conduct of
legitimate trade and scientific endeavors. The Under Secretary of Defense for
Policy is assigned responsibility for preparing technology transfer control and
enforcement policy guidance as well as coordinating overall application of DoD
policy. The Director, Defense Research and Engineering, is assigned
responsibility for overseeing the implementation of the DoD technology transfer
policy for all research and development matters. However, DoD Directive 2040.2
does not clearly state policies, procedures, and responsibilities for determining
whether a deemed export license is required when a foreign national visits a DoD
research facility.

         DoD Directive 5230.20. DoD Directive 5230.20 establishes the
International Visits Program, the Foreign Liaison Officers Program, the Defense
Personnel Exchange Program, and the policy for the assignment of Cooperative
Program personnel. DoD Directive 5230.20 applies to all arrangements whereby
foreign visitors are assigned to DoD Components or to contractor facilities over
which DoD Components have security responsibility. DoD Directive 5230.20
states that access by foreign nationals to controlled unclassified information will
be in accordance with the EAR and the ITAR and that DoD visitor authorizations
are not to be used to circumvent export licensing requirements. In addition, it
states that access to classified or controlled unclassified information shall not be
permitted until it has been verified that the appropriate license approval or other
authorization has been obtained. However, DoD Directive 5230.20 does not
clearly state policies, procedures, and responsibilities for determining whether a
deemed export license is required when a foreign national visits a DoD research
facility.

Exemptions to Deemed Export Licensing Requirements. The EAR and the
ITAR contain provisions that exempt a DoD host from obtaining a deemed export
license when visited by a foreign national.

        Exemptions to EAR Requirements. The EAR states that not all items
are subject to the export licensing process, including publicly available software
and technology, except software controlled for encryption reasons on the
Commerce Control List. Publicly available software and technology includes
items that are already published or will be published; arise during or result from
fundamental research; are educational; or are included in certain patent
applications. According to the EAR, fundamental research is defined as:
           . . . basic and applied research in science and engineering where the
           resulting information is ordinarily published and shared broadly within
           the scientific community. Such research can be distinguished from
           proprietary research and from industrial development, design,
           production, and product utilization, the results of which ordinarily are
           restricted for proprietary reasons or national security reasons.

The EAR contains certain exemptions from export licensing requirements for
North Atlantic Treaty Organization countries. In addition, the EAR states that
items subject to the ITAR export licensing process are not subject to the EAR.




                                        11
              Exemptions to ITAR Requirements. Part 125 of the ITAR, “Licenses
     for the Export of Technical Data and Classified Defense Articles,” provides
     exemptions to ITAR export licensing requirements. Section 125.4, “Exemptions
     of general applicability,” provides some exemptions for technical data, including
     classified information, for which the exporter may not require an export license.
     Section 125.4 states that technical data can be approved for public release by the
     cognizant U.S. Government department or agency or the Directorate for Freedom
     of Information and Security Review. The exemption applies to information
     approved by the cognizant U.S. Government department or agency for public
     release in any form. It does not require that the information be published in order
     to qualify for the exemption. Section 125.5, “Exemptions for plant visits,” states
     that a license is not required for the oral and visual disclosure of unclassified
     technical data during the course of a classified plant visit by a foreign national
     provided that the:

            •   classified visit was authorized pursuant to a license issued by the
                Department of State;

            •   classified visit was approved in connection with an actual or potential
                government-to-government program or project by a U.S. Government
                agency having classification jurisdiction over the classified defense
                article or classified technical data; and

            •   unclassified information to be released is directly related to the
                classified defense article or technical data for which approval was
                obtained and does not disclose the details of the design, development,
                production, or manufacture of any other defense articles.

     However, section 125.6 of the ITAR, “Certification requirements for
     exemptions,” requires that exemptions be certified. It states that:
                 . . . to claim an exemption for the export of technical data under the
                provisions of Sec. 125.4 and 125.5 of the ITAR, an exporter must
                certify that the proposed export is covered by a relevant paragraph of
                that section. For Sec. 125.4, certification consists of marking the
                package or letter containing the technical data: “22 CFR 125.4 (identify
                subsection) applicable.” This certification must be made in written
                form and retained in the exporter’s files for a period of five years. A
                Shippers Export Declaration is not required for exports of unclassified
                technical data . . . .

     However, those exemptions and certification requirements are not addressed in
     DoD Directive 2040.2 and DoD Directive 5230.20.



Release of Technical Data
     Export controls for the release of technical data to foreign nationals at DoD
     research facilities did not exist. As a result, DoD research facilities provided
     technical data to foreign nationals without determining whether an export license
     was required. We found no evidence that DoD hosts had made a determination as



                                             12
to whether an export license was required or exempt, per the EAR fundamental
research exemption, or had certified that technical data released was exempt from
ITAR licensing requirements. Such a determination would evaluate whether the
technical data was related to basic, applied, advanced technology development,
with the latter not subject to a possible EAR exemption. Export license
applications were not submitted by hosts of foreign visitors, even though an
export license may have been required because of the information accessed by or
released to the visitor. Because we could not determine the extent of the daily
activities in which foreign nationals were involved, or the specific information
and technologies to which they may have had access, we could not definitively
determine that DoD should have obtained deemed export licenses for any of the
foreign visitors. However, the foreign nationals did obtain information and had
access to technologies considered militarily critical.

Defense Security Service Study. There was a close correlation between the
research and development technology areas that a foreign national visited and the
Defense Security Service’s ranking of technologies that were the subject of illicit
foreign collection efforts. The Defense Security Service study, “1999 Technology
Collection Trends in the U.S. Defense Industry,” undated, reports that the four
most often sought after technology categories by foreign entities (in descending
order of number of occurrences) were lasers and sensors; information systems;
aeronautics systems; and armaments and energetic materials.3 Those four
technology categories are included in the Commerce Control List and the U.S.
Munitions List.

According to the study, the most sought after militarily critical technology
category in 1998 were lasers and sensors. Cleared contractors4 reported 4 foreign
collection incidents targeting lasers and 73 targeting sensors. The most frequent
method used by foreign entities to collect data about a given technology was
specific requests for information. The second method most frequently used was
visits to U.S. facilities. The Defense Security Service study states that instead of
targeting complete weapon systems and military equipment, foreign entities were
more intensely targeting weapon components, developing technologies, and
technical information.

Army Research Facilities Visited. Army research facilities provided technical
data to foreign nationals without determining whether an export license was
required. The Defense Security Service study identified information systems,
fusing, and the Object Individual Combat Weapon group of small arms weapons,
as the most frequently sought after technology by foreign nations. During our
visit to the Army Armament Research, Development and Engineering Center and
the Army Communications-Electronics Command research facilities, we found
foreign nationals had visited those facilities to review technology related to lasers
and sensors, information systems, and armaments and energetic materials.



3
 Any explosive, propellant, and pyrotechnic component, including high-energy detonators.
4
 A cleared contractor is any commercial, educational, industrial, or other entity that has been
 granted a facility security clearance by a cognizant security office.




                                            13
        Army Armament Research, Development and Engineering Center. In
FY 1998, research facilities at the Army Armament Research, Development and
Engineering Center had 312 approved foreign visitors; in FY 1999, there were
389 approved foreign visitors. The Close Combat Armaments Center is the
primary research, development, testing, and evaluation facility of the Army
Armament Research, Development and Engineering Center. It provides the core
efforts of 6.2 (Applied Research)5 and 6.3 (Advanced Technology Development)6
research technology at the Center and manages and conducts research,
development, and engineering of close combat systems, including small arms,
fuses, ancillary items, and other assigned systems. It is the Army’s lead material
developer for the nonlethal program and serves as the DoD Management
Executive for the Joint Service Small Arms Program.

In September 1999, a visit was approved for an Israeli foreign national. No
delegation of disclosure authority letter existed at that time, although a draft
delegation of disclosure authority letter was in development. The Request for
Visit Authorization and subsequent visit briefing charts showed that the visit
discussion addressed armament and energetic technology related to small arms for
the Object Individual Combat Weapon and the fusing devices for mortars.

         Army Communications-Electronics Command. In FY 1998, research
facilities at the Army Communications-Electronics Command had 1,669 approved
foreign visitors; in FY 1999, there were 2,690 approved foreign visitors. The
Logistics and Readiness Center provides quality worldwide production, quality
management, and logistics support of Army Communications-Electronics
Command equipment. It provides 6.6 (Research, Development, Test and
Evaluation Management Support)7 research technology support at the Command.
The focus of the Logistics and Readiness Center is to provide total support
capability for fielded programs, as well as new and emerging programs. The
Center’s mission includes support areas such as production planning and risk
assessment, engineering data development, and management of the Industrial
Base Technology Insertion Program.8

Seven People’s Republic of China foreign nationals were granted approval to visit
the Logistics and Readiness Center during FY 1998. The purpose of the visit was
to enable the foreign nationals to see a demonstration of the Mantech Aurora
Series Tester that was located on the Army Communications-Electronics
Command property. Visit documentation from FY 1998 was no longer available.

5
 6.2 (Applied Research) – A research “breakthrough” has occurred and the research facility tries to
 identify a military weapon system, or weapon systems, where it can be effectively used.
6
 6.3 (Advanced Technology Development) – The research effort is focused towards a particular
 weapons system, or weapons systems, and a determination is made whether the technology can
 be expanded, contracted, or is compatible for integration into the weapon system.
7
 6.6 (Research, Development, Test and Evaluation Management Support) – The research and
 development effort is directed toward support of operations required for general research and
 development, to include test facilities, studies, and analyses in support of research and
 development programs.
8
 The Industrial Base Technology Insertion Program is a DoD research, development, test, and
 evaluation program established to convert promising technologies from a research facility
 version to a production version.



                                           14
However, the Foreign Disclosure Officer recalls approving the Chinese foreign
nationals to only come onto and exit the Army Communications-Electronics
Command property. The Foreign Disclosure Officer approved the release of
unclassified information to the visitors. However, the Foreign Disclosure Officer
believes that there was no release of Army technical information, as the Army is
not the proponent of the system. The visit was for contractor purposes, the
contractor was present, and a Army representative of the Logistics and Readiness
Center provided escort for the Chinese and contractor visitors. The Army
Communications-Electronics Command visit authorization documents do not
identify any applicable memorandum of understanding, DEA, or delegation of
disclosure authority letter to justify disclosure of information. No export license
or other documents were provided from the Army Communications-Electronics
Command that would identify the specifics of the visit or technologies and
technical information that were released or transferred to the Chinese foreign
nationals.

Navy Research Facilities Visited. Navy research facilities provided technical
data to foreign nationals without determining whether an export license was
required. The Defense Security Service study identified information systems and
aeronautics systems as some of the most sought after technology by foreign
nations. We visited the Aircraft and Weapons Divisions of the Naval Air Warfare
Center and found that foreign visitors had been to those facilities reviewing
technologies related to aeronautics systems, armaments, energetic materials and
sensors.

        Naval Air Warfare Center, Aircraft Division. In FY 1998, the Naval
Air Warfare Center, Aircraft Division, had 139 approved foreign visitors; in
FY 1999, there were 701 approved foreign visitors. The Aircraft Division is the
Navy’s “full spectrum research, development, test and evaluation, engineering
and fleet support center.” It provides core research and development efforts from
6.1 (Basic Research)9 through 6.4 (Demonstration and Validation).10 It is
considered the Navy’s leader in the design, development, and engineering of
aircraft systems; shipboard, fixed, and mobile communications; and information
technology systems.

In November 1999, two Russian foreign nationals visited the Aircraft Division to
discuss issues regarding aeronautics systems. During their visit, they received
oral and visual information pertaining to aeronautics. The visit was authorized by
a Navy contract. The foreign visitors’ host provided only verbal information on
aeronautics systems. No export license or other documents were provided from
the Aircraft Division that would identify the specifics of the visit or technologies
and technical information that were released or transferred to the Russian foreign
nationals.

      Naval Air Warfare Center, Weapons Division. In FY 1998, the Naval
Air Warfare Center, Weapons Division, had 1,642 approved foreign visitors; in
FY 1999, there were 2,562 approved foreign visitors. The Weapons Division is a
9
 6.1 (Basic Research) – Attempts are made to take a research idea and develop a technology.
10
    6.4 (Demonstration and Validation) – The integrated research effort is tested to evaluated the
    capabilities of the new technology.



                                              15
multi-site organization created in 1992 from the Navy Research, Development,
Test, and Evaluation Center and test and evaluation activities at China Lake
(Naval Weapons Center), Point Mugu (Pacific Missile Test Center) and White
Sands (Naval Ordnance Missile Test Station). It provides core efforts from
6.1 (Basic Research) through 6.3 (Advanced Technology Development).
Weapons Division programs include research and development for many of the
technologies on the Militarily Critical Technologies List, including aeronautics
systems, armaments and kinetic energetic materials technology, and sensor
technology.

In October 1999, a group of Israeli foreign nationals visited the Weapons Division
to discuss issues regarding armaments and sensors, as well as to receive a tour of
the various research facilities. During their visit, they received oral and visual
information pertaining to armaments and sensors. The visit was authorized under
a DEA; however, a delegation of disclosure authority letter did not exist. No
export license or other documents were provided from the Weapons Division that
would identify the specifics of the visit or technologies and technical information
that were released or transferred to the Israeli foreign nationals.

Air Force Research Facilities Visited. Air Force research facilities provided
technical data to foreign nationals without determining whether an export license
was required. The Defense Security Service study identified lasers and sensors as
the most frequently sought after technology category by foreign nations. We
visited the Air Force Research Laboratories at Kirtland Air Force Base and
Wright-Patterson Air Force Base and found that foreign nationals had been to
those facilities and reviewed laser and sensor technology.

        Kirtland Research Laboratory. In FY 1998, the Kirtland Air Force
Base research facility had 307 approved foreign visitors; in FY 1999, there were
235 approved foreign visitors. At the Kirtland research facility, the Directed
Energy Directorate was responsible for developing, integrating, and transitioning
science and technology for directed energy, to include adaptive optics, high-
power microwaves, imaging, and lasers, to ensure the preeminence of the United
States in air and space. The directorate worked on 6.2 (Applied Research) and 6.3
(Advanced Technology Development) research technology related to advanced
optics and imaging, high-power microwave, and laser technology.

During a 90-day period in calendar year 1999, two Russian foreign nationals were
granted approval for recurring visits to the Directed Energy Directorate to conduct
laser experiments and discuss laser-related technology issues. The foreign
nationals had an office at the University of New Mexico and only used the
research facility to conduct laser experiments. The visit was not authorized under
a DEA, and a delegation of disclosure authority letter did not exist. However, the
foreign nationals were placed under a strict security plan to control and restrict
access to the facility, other laboratory researchers, and technical data not related
to their laser experiments. The host stated that the foreign nationals were escorted
100 percent of the time while in the research facility.




                                    16
          Wright-Patterson Research Laboratory. In FY 1998, the
   Wright-Patterson research facility had 456 approved foreign visitors; in FY 1999,
   there were 442 approved foreign visitors. The Sensors Directorate is responsible
   for developing technologies to collect, interpret, and measure important military
   information worldwide and deny the enemy the same. The directorate works on
   6.2 (Applied Research) and 6.3 (Advanced Technology Development) research
   technology related to infrared sensors and countermeasures technology,
   multi-discriminant and multi-function sensing, microwave and related
   components, and electro-optic detectors.

   During FY 1998, a foreign national from India visited the Sensors Directorate at
   Wright-Patterson Air Force Base to participate in discussions and to test and
   investigate power performance of radar systems. The foreign scientist worked for
   a U.S.-owned company on an unrelated Air Force Office of Scientific Research
   contract in another State. During his visit, he received oral and visual information
   pertaining to sensors. The foreign visitor’s host stated that he did not maintain
   any notes or briefing charts concerning the visit agenda or discussions conducted.



Summary
   Numerous foreign nationals visit DoD research facilities under various
   international agreements and programs. Access to a research facility can be for a
   1-day visit or for a period of several years. During the visit, the foreign national
   may be exposed to various technical information and know-how. Although
   information released to foreign nationals is reviewed for accuracy and security
   implications, a review is not performed to determine whether that information is
   potentially an exportable item under EAR or ITAR provisions. In those instances
   in which the release of the technical information could have been exempted from
   EAR or ITAR export licensing requirements, documentation did not exist to
   support the exemption. DoD needed to establish procedures to ensure that
   technical information or know-how released to foreign nationals is in compliance
   with Federal export licensing requirements.




                                        17
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense for Policy:

           a. Coordinate with the Departments of Commerce and State to
    develop guidance regarding when a visit or assignment of a foreign national
    to a DoD facility requires a deemed export license.

           b. Revise DoD Directive 2040.2, “International Transfers of
    Technology, Goods, Services, and Munitions,” to clearly state policies,
    procedures, and responsibilities of DoD and Military Department hosts for
    determining whether a deemed export license is required when a foreign
    national visits a DoD facility.

           c. Revise DoD Directive 5230.20, “Visits, Assignments, and Exchanges
    of Foreign Nationals,” to clearly state policies, procedures, and
    responsibilities of DoD and Military Department hosts for determining
    whether a deemed export license is required when a foreign national visits a
    DoD facility.

    A.2. We recommend that the Director, Defense Research and Engineering:

           a. Coordinate with the Departments of Commerce and State to
    develop guidance regarding when a visit or assignment of a foreign national
    to a DoD research facility requires a deemed export license.

            b. Establish a focal point at each DoD research facility to determine
    whether a deemed export license is required when a foreign national visits
    the facility.

            c. Develop an export control program document containing
    procedures for determining whether technology or commodities at DoD
    research facilities can be exported to foreign countries, with or without a
    license. Include circumstances that may exclude a DoD or Military
    Department host from the requirements of the Export Administration
    Regulations or the International Traffic in Arms Regulations.

             d. Mandate training requirements for personnel at DoD research
    facilities on the deemed export licensing requirements of the Export
    Administration Regulations and the International Traffic in Arms
    Regulations.

    Army Comments. Although not required to comment, the Deputy Under
    Secretary of the Army (International Affairs) stated that a Process Action Team
    should be formed to include applicable Defense Components (at the Office of the
    Secretary of Defense, Army, Navy, and Air Force), Commerce, and State before
    the Office of the Secretary of Defense revises DoD Directive 2040.2,
    “International Transfers of Technology, Goods, Services, and Munitions,” and
    5230.20, “Visits, Assignments, and Exchanges of Foreign Nationals.” The


                                       18
Process Action Team should explore and lay to rest the underlying issues related
to Federal deemed export licensing requirements at DoD research facilities,
specifically regarding foreign national visits to DoD research facilities. An
underlying assumption has been the data exchange agreements and Engineer and
Scientist Exchange Program personnel exchanges were exempt because the work
executed thereunder fell into the category of the “fundamental research”
exemptions of the EAR. However, if those agreements and programs are not
covered under the EAR “fundamental research” exemption, the work involved
with them will grow considerably.

Air Force Comments. Although not required to comment, the Deputy Under
Secretary of the Air Force (International Affairs) stated that DoD research
facilities did not need procedures for determining whether an export license is
required because all authorized DoD interaction with foreign nationals that
involves classified or sensitive unclassified information is covered under
paragraphs 124.4, 124.5, 126.5, and 126.6 of the ITAR.

Audit Response. The Army suggestion appears to have merit. Regarding the Air
Force comment, it should be noted that, although some visits by foreign nationals
to DoD research facilities may qualify for an ITAR exemption, not all do. A
determination must be made on a case-by-case basis as to whether a license is
required under the EAR or the ITAR, or if an applicable ITAR exemption applies.

Management Comments Required. As of March 17, 2000, the Under Secretary
of Defense for Policy and the Director, Defense Research and Engineering, had
not responded to a draft of this report. We request that the Under Secretary of
Defense for Policy and the Director, Defense Research and Engineering, provide
comments in response to the final report.




                                    19
           B. Data Exchange Agreement Annexes
           DoD seldom provided proposed DEA annexes to Commerce for review.
           From calendar years 1994 through 1999, the Military Departments signed
           316 DEA annexes; however, DoD provided only 48 to Commerce. DEA
           annexes were seldom provided because a 1994 policy memorandum,
           “Implementing Arrangements to Research and Development Umbrella
           Agreements,” September 9, 1994, did not prescribe adequate procedures to
           ensure that Commerce was included in the DEA annex review process. In
           addition, the Military Departments’ guidance for reviewing proposed DEA
           annexes did not include Commerce. As a result, DoD was not necessarily
           reflecting a U.S. Government consensus position when approving most
           DEA annexes.



Policy and Procedures
    Mutual Weapons Development Data Exchange Program and Defense
    Development Exchange Program. DoD Instruction 2015.4, “Mutual Weapons
    Development Data Exchange Program and Defense Development Exchange
    Program,” November 5, 1963, establishes procedures for exchanging scientific
    and technical military information of interest to the United States through
    correspondence or visits by technical personnel under the Defense Data Exchange
    Program (formerly the Defense Development Exchange Program). DoD
    Instruction 2015.4 states that a master DEA is an international agreement between
    DoD and a foreign country that establishes a framework for the exchange of
    research and development information. An annex to the master DEA is the
    mechanism for exchanging information. DEA annexes describe the scope of
    specific projects under the master DEA. DoD Instruction 2015.4 delegates
    authority to the Military Departments to initiate, sign, and terminate DEA
    annexes; however, the Director, Defense Research and Engineering, is required to
    sign all master DEAs.

    International Agreements. DoD Directive 5530.3, “International Agreements,”
    June 11, 1987, establishes policy, delegates authority, and prescribes procedures
    for implementing international agreements. DoD Directive 5530.3 defines
    international agreements as any agreement:

           •   that is concluded with one or more foreign governments, signed by
               personnel representing the U.S. Government;

           •   that signifies the intention of its parties to be bound to international
               law; and

           •   that is denominated by any name connoting a legal consequence.

    DoD Directive 5530.3 authorizes the Under Secretary of Defense for Policy to
    delegate responsibility for negotiating and concluding international agreements
    within certain subject areas to DoD Components. However, DoD Components



                                         20
    with delegated authority must consult with organizations, including the
    Department of State, that have a vested interest in the subject area before
    negotiating and concluding international agreements. DoD Directive 5530.3 does
    not include Commerce in the required coordination process for international
    agreements.

    Policy Memorandum. On September 9, 1994, the Principal Deputy Assistant
    Secretary of Defense for Dual-Use Technology Policy and International Programs
    (now the Deputy Under Secretary of Defense [International and Commercial
    Programs]) issued a policy memorandum, “Implementing Arrangements to
    Research and Development Umbrella Agreements” (1994 Policy Memorandum),
    to the Assistant Secretaries of the Army and Navy (Research, Development, and
    Acquisition); the Deputy Under Secretary of the Air Force (International Affairs);
    and the Deputy Director, Defense Research and Engineering. The purpose of the
    1994 Policy Memorandum was to define the Military Departments’ staffing
    requirements for DEA annexes. The 1994 Policy Memorandum states that all
    DEA annexes are to be forwarded to the Office of the Secretary of Defense prior
    to implementation and requires the Office of the Secretary of Defense to forward
    all DEA annexes to Commerce for review and comment. In addition, the 1994
    Policy Memorandum states that the Military Departments are to consider and
    adopt, as appropriate, comments from Commerce on proposed DEA annexes.



DEA Annex Coordination With Commerce
    DoD seldom provided proposed DEA annexes to Commerce for review. The
    Military Departments enter DEA annexes into the Tri-Service DEA Annex
    Database. The Tri-Service DEA Annex Database is an online database that
    provides information for all DEA annexes related to the country involved in the
    agreement, the subject of the agreement, and points of contact for the agreement.
    The database contains DEA annexes that were established,11 expired,12 proposed,13
    and terminated.14 The database was developed in 1996 under a Navy International
    Programs Office and JIL Information Systems contract. Officials from the Navy
    International Programs Office stated that the database was initially developed to
    make information related to DEA annexes accessible to the entire Navy.
    However, prior to the database’s completion, it was expanded to include the Army
    and the Air Force. As of January 2000, the Tri-Service DEA Annex Database
    contained 316 DEA annexes approved by the



    11
      A DEA annex that has been signed and is currently being implemented.
    12
     A DEA annex that was terminated because of a pre-arranged closing date, unless the DEA is
     extended by mutual agreement prior to its expiration.
    13
      A DEA annex that is in the process of being signed.
    14
     A DEA annex that has become unproductive and is pro-actively terminated either by mutual
     agreement or unilaterally per the terms of the master DEA or the DEA annex before its
     expiration date, if there was one.



                                               21
    Military Departments from calendar years 1994 through 1999. The following
    table shows the number of DEA annexes signed by each Military Department
    each year.


                DEA Annexes Signed by the Military Departments

                    1994     1995    1996      1997   1998   1999     Total

     Army              9       14         21    24       6       7      81

     Navy             35       47         55    25     15      14      191

     Air Force         6       12          5     7       4     10       44

      Total           50       73         81    56     25      31      316




    From calendar years 1994 through 1999, the Military Departments signed
    316 DEA annexes. Of the 316 DEA annexes, Commerce officials stated that
    DoD provided 48 (15 percent) for review during the same period as follows:

            •    3 DEA annexes in 1994,

            •    17 DEA annexes in 1995,

            •    13 DEA annexes in 1996,

            •    8 DEA annexes in 1997,

            •    7 DEA annexes in 1998, and

            •    0 DEA annexes in 1999.

    Of the 48 DEA annexes provided to Commerce for review, Commerce did not
    concur with 6 (13 percent), because of concerns on the potential economic and
    competitive impact on the U.S. industrial base.



Compliance With Policy and Procedures
    The Office of the Deputy Under Secretary of Defense (International and
    Commercial Programs) seldom provided DEA annexes to Commerce because the
    1994 Policy Memorandum did not prescribe adequate procedures to ensure that
    Commerce was included in the DEA annex review process. In addition, the
    Military Department guidance for reviewing proposed DEA annexes did not
    include Commerce.


                                          22
Procedures for Coordinating With Commerce. The 1994 Policy Memorandum
did not prescribe adequate procedures to ensure that Commerce was included in
the DEA annex review process. The 1994 Policy Memorandum required the
Military Departments to forward, prior to implementation, a copy of DEA
annexes to the Office of the Secretary of Defense. The Office of the Secretary of
Defense was to forward all DEA annexes to Commerce for review. However, the
1994 Policy Memorandum did not recognize that DoD Instruction 2015.4
delegated the authority to initiate, sign, and terminate DEA annexes to the
Military Departments.

        Army Implementing Procedures. Army guidance did not require
coordinating proposed DEA annexes with Commerce. The Army implementing
regulation to DoD Instruction 2015.4 is Army Regulation 70-33, “Mutual
Weapons Development Data Exchange Program (MWDDEP) and Defense
Development Exchange Program (DDEP),” November 11, 1976. That Army
regulation addresses procedures for coordinating proposed DEA annexes.
However, because the regulation had not been updated since 1976, the
requirement to coordinate with Commerce on proposed DEA annexes was not
included in the regulation. As a result, the Army Materiel Command did not
coordinate proposed DEA annexes with Commerce. In addition, because DoD
Instruction 2015.4 delegates approval authority to the Army for its DEA annexes,
the Army Materiel Command did not coordinate proposed DEA annexes with the
Office of the Secretary of Defense.

         Navy Implementing Procedures. Navy guidance did not require
coordinating proposed DEA annexes with Commerce. Officials from the Navy
International Programs Office stated that the Navy uses DoD Instruction 2015.4
as its primary guidance for preparing DEA annexes. In addition to DoD
Instruction 2015.4, the Department of the Navy Handbook, “Data Exchange
Program Guidelines for Technical Project Officers,” November 1, 1997, was
developed to address procedures for coordinating and reviewing proposed DEA
annexes. The handbook was developed as a reference tool to assist technical
project officers in identifying agreements that will benefit the Navy research and
development community. However, the handbook does not address the
requirement to coordinate proposed DEA annexes with Commerce or the Office
of the Secretary of Defense. As a result, the Navy International Programs Office
did not coordinate proposed DEA annexes with Commerce. Officials from the
Navy International Programs Office stated they did coordinate proposed DEA
annexes with the Office of the Deputy Under Secretary of Defense (International
and Commercial Programs), as required by the 1994 Policy Memorandum.
However, officials in the Office of the Deputy Under Secretary of Defense stated
they had not received any DEA annexes from the Navy and, therefore, had not
submitted the DEA annexes to Commerce for review.

        Air Force Implementing Procedures. Air Force guidance did not
require coordinating proposed DEA annexes with Commerce. The Air Force
implementing instruction to DoD Instruction 2015.4 is Air Force
Instruction 16-110, “U.S. Air Force Participation in International Armaments
Cooperation (IAC),” March 19, 1999. Air Force Instruction 16-110 addresses
procedures for coordinating proposed DEA annexes. However, the instruction
does not address the requirement to coordinate proposed DEA annexes with



                                    23
     Commerce. As a result, the Office of the Deputy Under Secretary of the Air
     Force (International Affairs) did not coordinate proposed DEA annexes with
     Commerce. In addition, because DoD Instruction 2015.4 delegates the Air Force
     approval authority for its DEA annexes, the Office of the Deputy Under Secretary
     of the Air Force (International Affairs) did not coordinate proposed DEA annexes
     with the Office of the Secretary of Defense.

     Streamlining the Process. Because approval authority for DEA annexes has
     been delegated to the Military Departments, it would be more efficient to delegate
     the Military Departments direct authority to coordinate with Commerce.
     Requiring the Military Departments to coordinate with the Office of the Secretary
     of Defense lengthens the review process for approving DEA annexes. To
     streamline the process, the Military Departments should include in implementing
     guidance of DoD Directive 2015.4 procedures requiring that proposed DEA
     annexes be coordinated with Commerce. In addition, the Deputy Under Secretary
     of Defense (International and Commercial Programs) should rescind the
     1994 Policy Memorandum.



Industrial Base Impact
     If DoD continues to exclude Commerce in the DEA annex review process, DoD
     may not reflect a U.S. Government consensus position when approving DEA
     annexes. The 1994 Policy Memorandum states that it is in the interest of DoD to
     allow Commerce to review proposed implementing arrangements to research and
     development umbrella agreements. A Commerce review would provide DoD an
     assessment of the economic and competitive impact of the transfer of technology
     to the U.S. industrial base. Since 1958, DoD has participated with allied and
     friendly nations in the exchange of basic scientific and technical information in
     areas of mutual interest. The Defense Data Exchange Program supports DoD
     efforts to improve the quality and interoperability of weapon systems, enhance the
     DoD technology base, identify areas for further research, and stay abreast of our
     allies’ technological advances. Because of the high likelihood of transferring
     critical information and technology, DEA annexes should be reviewed by
     Commerce to ensure the greatest protection of the U.S. industrial base.




                                         24
Recommendations, Management Comments, and Audit
  Response
    Redirected Recommendation. As a result of the Deputy Under Secretary of the
    Army (International Affairs) comments, we redirected Recommendation B.2.
    from the Commander, Army Materiel Command, to the Deputy Under Secretary.

    B.1. We recommend the Deputy Under Secretary of Defense (International
    and Commercial Programs):

          a. Rescind the 1994 policy memorandum, “Implementing
    Arrangements to Research and Development Umbrella Agreements.”

           b. Revise DoD Instruction 2015.4, “Mutual Weapons Development
    Data Exchange Program and Defense Development Exchange Program,” to
    delegate authority to the Military Departments for coordinating data
    exchange agreement annexes with the Department of Commerce.

    Management Comments. The Deputy Under Secretary of Defense
    (International and Commercial Programs) stated that his office regularly consults
    with the Departments of Commerce and State on all international agreements
    under its staffing authority. He also stated that DoD is conducting a systematic
    review of its internal processes for international cooperation and trade. The
    review, which includes representatives from the Departments of Commerce and
    State, will help identify process improvements in the review and approval
    processes for international agreements. This audit report will be considered in the
    development of further policy and process enhancements.

    Audit Response. The Deputy Under Secretary of Defense (International and
    Commercial Programs) comments were partially responsive. Although we
    commend DoD for conducting a review of its internal processes for international
    cooperation and trade, management’s position on the recommendation to rescind
    the 1994 policy memorandum and revise DoD Instruction 2015.4 needs
    clarification. We request that the Deputy Under Secretary of Defense
    (International and Commercial Programs) provide comments addressing the
    recommendations in response to the final report.

    B.2. We recommend the Deputy Under Secretary of the Army (International
    Affairs) update Army Regulation 70-33, “Mutual Weapons Development
    Data Exchange Program (MWDDEP) and Defense Development Exchange
    Program (DDEP),” to delineate clear procedures for coordinating data
    exchange agreement annexes with the Department of Commerce.

    Management Comments. The Deputy Under Secretary of the Army
    (International Affairs) concurred, in principle, provided concerns in regard to
    finding A are addressed by a process action team before implementing this
    recommendation. If the Office of the Secretary of Defense promulgates the
    recommended revision to DoD Directive 2015.4 before Army Regulation 70-33
    has been revised, the Army Materiel Command will write a provision into the
    update of the “Army/AMC [Army Materiel Command] Data Exchange


                                        25
Agreement Letter of Instruction (LOI),” to state that the Army Materiel Command
as the Army Defense Development Exchange Program executive agent will staff
all proposed data exchange agreements with Commerce.

B.3. We recommend the Navy International Programs Office update the
Department of the Navy Handbook, “Data Exchange Program Guidelines for
Technical Project Officers,” to delineate clear procedures for coordinating
data exchange agreement annexes with the Department of Commerce.

Management Comments. The Principal Deputy Assistant Secretary of the Navy
(Research, Development and Acquisition) concurred, stating that after the Office
of the Secretary of Defense revises DoD Directive 2015.4 delegating authority to
the Military Departments for coordinating data exchange agreements with
Commerce, the Navy International Programs Office will immediately revise and
distribute the updated Handbook.

B.4. We recommend the Deputy Under Secretary of the Air Force
(International Affairs) update Air Force Instruction 16-110, “U.S. Air Force
Participation in International Armaments Cooperation (IAC),” to delineate
clear procedures for coordinating data exchange agreement annexes with the
Department of Commerce.

Management Comments. The Deputy Under Secretary of the Air Force
(International Affairs) concurred, stating that Air Force Instruction 16-110 will be
updated once DoD Instruction 2015.4 is revised.




                                     26
Appendix A. Audit Process

Scope
    Work Performed. We reviewed the Export Administration Act and the Arms
    Export Control Act and associated regulations. In addition, we reviewed the
    Department of State May 1999 list of countries that do not cooperate fully with
    U.S. antiterrorism efforts and the Department of Energy July 1999 Sensitive
    Countries List to identify current countries and entities of concern. Also, we
    reviewed the Defense Security Service study, “1999 Technology Collection
    Trends in the U.S. Defense Industry,” that identified technology interest trends
    and ranked technologies, DoD programs, and weapon systems that were most
    frequently the target of illicit foreign collection efforts. Further, we reviewed and
    evaluated the adequacy of DoD and Military Department directives, policies,
    regulations, and memorandums, implemented during the period 1963 through
    1999, related to disclosure and transfer of militarily sensitive and critical
    technologies and technical information to foreign countries and representatives.

    We conducted interviews with Commerce and Department of State licensing
    officials. In addition, we conducted interviews with officials at the Offices of the
    Under Secretary of Defense for Policy; the Deputy Under Secretary of Defense
    (Science and Technology); the Director, Defense Research and Engineering; the
    Deputy Under Secretary of Defense (International and Commercial Programs);
    the Director, Defense Threat Reduction Agency; and at the Military Departments
    and the DoD program offices. In addition, we visited research facilities at the
    Army Armament Research, Development and Engineering Center; the Army
    Communications-Electronics Command; the Naval Air Warfare Center, Aircraft
    Division; the Naval Air Warfare Center, Weapons Division; and the Air Force
    Research Laboratories at Kirtland Air Force Base and Wright-Patterson Air Force
    Base. We conducted interviews with DoD managers at the sites visited who were
    responsible for managing the technology security programs and for managing and
    controlling foreign national visitors.

    Limitations to Scope. In general, we did not include for review visits by foreign
    nationals approved under a DoD contract authority.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate goal, and performance measure:

           FY 2000 Corporate Level Goal 2: Prepare now for an uncertain future
           by pursuing a focused modernization effort that maintains U.S. qualitative
           superiority in key warfighting capabilities. Transform the force by
           exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve the 21st century infrastructure. (00-DoD-2)
           FY 2000 Subordinate Performance Goal 2.2: Transform the U.S.
           military forces for the future. (00-DoD-2.2) FY 2000 Performance



                                         27
            Measure 2.2.2: Status of Defense Technology Objectives as Judged by
            Technology Area Review Assessments. (00-DoD-2.2.2)



Methodology
    To determine the adequacy of DoD policies and procedures to prevent the transfer
    of technologies and technical information with potential military application to
    countries and entities of concern, we reviewed foreign visitor authorization
    listings at the six visited sites. The foreign visitor authorization listings identified
    visit requests received and approved in FY 1998 and FY 1999. During FY 1998
    and FY 1999, the six visit sites had 11,544 approved foreign visitors. We
    judgmentally selected approved requests for visits conducted during FY 1998 and
    FY 1999. We reviewed the appropriate case files and related international
    agreements, delegation of disclosure authority letters, and security classification
    guides to identify established controlling authorities for disclosure of technologies
    and technical information to foreign national visitors at the research facilities and
    program offices visited. We interviewed DoD managers responsible for
    approving visits and for overseeing the foreign national’s visit. In addition, we
    reviewed any available documentation for the technologies and technical
    information that was identified and provided to the foreign national during the
    visit. We evaluated the controlling authorizations, and the policies and
    procedures established to prevent the inappropriate transfer of militarily sensitive
    and critical technologies and technical information to foreign nationals or
    countries, against the visit controls and technical information provided to the
    foreign national during the course of the visit. Also, we compared the DoD
    programs, weapon systems, and technical information disclosed during a foreign
    national visit with the DoD programs, weapon systems, and technologies
    identified as targets in the Defense Security Service study to determine the need
    for executing export license applications prior to the disclosure of information on
    those DoD programs, weapon systems, and technologies.

    We performed tests to determine whether DEA annexes were coordinated with
    Commerce. We reviewed the DoD Tri-Service DEA Annex Database to identify
    the universe of DEAs that were signed by the Military Departments from calendar
    years 1994 through 1999. We compared the number of DEA annexes in the
    database with the number of DEA annexes reviewed by Commerce during the
    same period.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the Foreign Disclosure and Technical Information System database and the Tri-
    Service DEA Annex Database. We did not test general and application controls
    to confirm the reliability of the systems because we only relied on the information
    to determine the magnitude of approved foreign visit requests

    received and DEAs received and coordinated with Commerce. We tested the
    computations and information for accuracy, and determined that they were
    validated for use in meeting the audit objectives.




                                          28
    Audit Type, Dates, and Standards. This economy and efficiency audit was
    conducted from September 1999 through January 2000 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, Commerce, and the Department of State. Further
    details are available upon request.



Management Control Program
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls at DoD research facilities and the Office of the
    Secretary of Defense with respect to controls over the export and export licensing
    of technologies and technical information. Specifically, we reviewed the
    adequacy of the Military Departments’ management controls for determining
    whether a deemed export license was required in conjunction with a foreign visit.
    We also reviewed controls related to coordination of DEA annexes. In addition,
    we reviewed management’s self-evaluation applicable to export controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses at the Military Departments and the Office of the Secretary of
    Defense with respect to export and export licensing of technologies and technical
    information, as defined by DoD Instruction 5010.40, “Management Control
    Program Procedures,” August 28, 1996. The Military Departments’ management
    control procedures over research facilities were not adequate to ensure that a
    determination was made whether a deemed export license was required in
    conjunction with a foreign visit. Recommendations A.1. and A.2., if
    implemented, will ensure that export licenses are obtained for controlled
    technologies and technical information prior to release or disclosure to a foreign
    national visitor. A copy of this report will be sent to the senior official in charge
    of management controls in the Office of the Secretary of Defense and the Military
    Departments. Although we identified management control weaknesses with
    respect to DEA annex coordination, they were not material weaknesses.

    Adequacy of Management’s Self Evaluation. The Office of the Secretary of
    Defense and the Military Departments’ research facility officials did not identify
    export licensing as an assessable unit, related to release or disclosure of
    non-Foreign Military Sales program technologies and technical information.
    Therefore, they did not identify or report the material management control
    weaknesses identified by the audit. The Military Departments’ research facility
    policies and procedures did not require consideration of deemed export licensing
    requirements prior to the release or disclosure of non-Foreign Military Sales


                                         29
program technologies and technical information to foreign nationals and,
therefore, did not include deemed export licensing requirements as a vulnerability
in the risk assessment.




                                    30
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector General,
    DoD, have conducted reviews and the General Accounting Office has also
    provided testimony to Congress on the subject matter of this report. General
    Accounting Office reports can be accessed over the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed over the
    Internet at http://www.dodig.osd.mil. The following reports are of particular
    relevance to the subject matter in this report.



General Accounting Office
    General Accounting Office Report No. NSIAD-00-14, “Export Controls:
    International Space Station Technology Transfer,” November 1999.

    General Accounting Office Report No. T-NSIAD-95-158, “Export Controls:
    Issues Concerning Sensitive Stealth-Related Items and Technologies,” May 11,
    1995.



Inspector General, DoD
    Inspector General, DoD, Report No. 99-186, “Review of the DoD Export
    Licensing Processes for Dual-Use Commodities and Munitions,” June 18, 1999.

    Inspector General, DoD, Report No. 98-214, “Implementation of the DoD
    Technology Transfer Program,” September 28, 1998.

    Inspector General, DoD, Report No. 98-157, “Updating the Foreign Disclosure
    and Technical Information System,” June 17, 1998.



Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, Energy, State, and
    the Treasury and the Central Intelligence Agency, Report No. 99-187,
    “Interagency Review of the Export Licensing Processes for Dual-Use
    Commodities and Munitions,” June 18, 1999.




                                       31
Appendix C. Research and Development
            Programs Available to Foreign
            Nationals
    During the audit, we identified DoD and Military Department research and
    development programs used to provide foreign nationals access to DoD research
    facilities. The programs, and in some cases the corresponding international
    agreements, provide foreign nationals access to technical data and know-how at
    the research facility. The following programs are those that were brought to our
    attention during the audit, not an all-inclusive list of such programs.



Department of Defense Programs
    Engineer and Scientist Exchange Program. The Engineer and Scientist
    Exchange Program is a DoD effort to promote international cooperation in
    military research, development, and acquisition through the exchange of Defense
    scientists and engineers. A prerequisite for establishing exchanges under the
    program is a formal international agreement with each participant nation. As of
    January 2000, DoD had signed Engineer and Scientist Exchange Program
    agreements with Australia, Canada, Egypt, France, Germany, Greece, Israel,
    Norway, Portugal, the Republic of Korea, Sweden, Spain, the Netherlands, and
    the United Kingdom.

    Foreign Visits System. Foreign national visits to DoD and Military Department
    research facilities are frequently initiated through the Foreign Visits System.
    Using the Foreign Disclosure and Technical Information System, the Embassy of
    the requesting government submits a formal visit request electronically. The visit
    may be self-initiated or by invitation, and the request may be for one-time,
    recurring, or extended visits. The appropriate foreign disclosure officer is
    authorized to approve or disapprove all foreign national visits to DoD installations
    when the visit involves the disclosure of unclassified or classified information.

    Intergovernmental Personnel Act Mobility Program. The Intergovernmental
    Personnel Act Mobility Program provides for temporary assignment of
    non-Federal employees among Federal, State, and local governments, colleges
    and universities, Indian tribal governments, federally funded research and
    development centers, and other eligible organizations. Foreign nationals
    employed under the Intergovernmental Personnel Act can also be employed in a
    DoD research facility.

    Small Business Innovation Research Program. In 1982, the enactment of the
    Small Business Innovation Development Act created the Small Business
    Innovation Research Program. The program was designed to stimulate
    technological innovation among small private-sector businesses while providing
    the Government new cost-effective technical and scientific solutions to
    challenging problems. The program is used extensively within DoD and the


                                        32
    Military Departments. Foreign nationals may be hired to work Small Business
    Innovation Research contracts supporting 6.1 (basic research) and 6.2. (Applied
    Research) technologies associated with militarily sensitive or critical
    technologies.



Department of the Army Programs
    Postdoctoral Programs. The Army Research Laboratory, through programs
    administered by the National Research Council and the American Society for
    Engineering Education, offers scientists and engineers research positions at
    several DoD research facilities and nearby universities. The objective of the
    program is to provide postdoctoral scientists and engineers with opportunities for
    research that contributes to the overall efforts of the Army Research Laboratory.
    Initial appointments are for 1 year, but are generally renewed for a second or third
    year based on the availability of funds.



Department of the Navy Programs
    Postdoctoral Fellowship Program. The Postdoctoral Fellowship Program is
    sponsored by the Office of Naval Research and is designed to encourage the
    involvement of creative, capable, and highly trained scientists and engineers who
    have received a Ph.D. or equivalent in areas of great interest and relevance to the
    Navy. Those individuals may apply for appointments at a number of Navy
    research facilities.



Department of the Air Force Programs
    High-Performance Computing Services Program. Air Force high-performance
    computing services are available to Air Force Office of Scientific Research grant
    or contract recipients. Research programs (meeting certain restrictions) are
    provided access to a range of state-of-the-art, high-performance computing assets
    within the DoD High-Performance Computing Modernization Program. There
    are policy provisions that provide control procedures for foreign nationals
    accessing the computers.

    U.S. Air Force National Research Council – Resident Research
    Associateship. The associateship offers postdoctoral and senior engineers and
    scientists opportunities to perform research at sponsoring Air Force research
    facilities. Postdoctoral and senior research associateships are awarded to U.S.




                                         33
citizens and permanent residents who have doctorates. U.S. citizenship is not a
requirement and a small number of associateships are available for foreign
nationals if funds are available.

Air Force Office of Scientific Research Grants. The Air Force Office of
Scientific Research manages the entire Air Force basic research program. Grants
enable technical experts to sponsor and direct research in Air Force research
facilities, academic institutions, U.S. industry, and other Government agencies to
produce world-class, militarily significant, and commercially valuable products.

Window on Science Program. The Air Force Window on Science Program is
managed by the European Office of Aerospace Research and Development
located in London, England, and the Asian Office of Aerospace Research and
Development located in Tokyo, Japan. The program provides technical
interchange opportunities to outstanding foreign scientists and engineers by
funding visits to Air Force research facilities.




                                    34
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Research and Engineering
  Deputy Under Secretary of Defense (International and Commercial Programs)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Affairs)
  Deputy Under Secretary of Defense (Policy Support)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)

Department of the Army
Deputy Under Secretary of the Army (International Affairs)
Commanding General, Army Materiel Command
Auditor General, Department of the Army

Department of the Navy
Director, Navy International Programs Office
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Under Secretary of the Air Force (International Affairs)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Security Cooperation Agency
Director, Defense Security Service
Director, Defense Systems Management College
Director, Defense Threat Reduction Agency
   Director, Technology Security Directorate
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency



                                          35
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of State

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Banking
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Committee on International Relations
House Subcommittee on International Economic Policy and Trade, Committee on
  International Relations
House Permanent Select Committee on Intelligence




                                           36
Deputy Under Secretary of Defense (International
and Commercial Programs) Comments




                       37
Department of the Army Comments




                     38
39
40
     Final Report
      Reference




     Redirected




     Revised




41
Final Report
 Reference




Revised




Page 21




Revised




Revised




               42
Department of the Navy Comments




                     43
Department of the Air Force Comments




                      44
45
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the Inspector
General, DoD, who contributed to the report are listed below.

       Shelton R. Young
       Evelyn R. Klemstine
       Raymond L. Hopkins
       Warren G. Anthony
       Sean J. Keaney
       Frank J. Kelly
       Scott J. Odette
       Christine M. McIsaac
